CERTIFICATE OF WORD COUNT
NO. 20-1587
State of Louisiana,
Petitioner,
v.
Tazin Ardell Hill,
Respondent.
___________
STATE OF MASSACHUSETTS )
COUNTY OF NORFOLK
) SS.:
Being duly sworn, I depose and say:
1. That I am over the age of 18 years and am not a party to this action. I am an employee of
the Supreme Court Press, the preparer of the document, with mailing address at 1089 Commonwealth
Avenue, Suite 283, Boston, MA 02215.
2. That, as required by Supreme Court Rule 33.1(h), I certify that the OKALHOMA ET AL AMICUS
STAGE IN SUPPORT OF PETITIONER contains 4339 words, including the parts of the brief
that are required or exempted by Supreme Court Rule 33.1(d).
AT PETITION

I declare under penalty of perjury that the foregoing is true and correct.

Lucas DeDeus
June 14, 2021

SCP Tracking: Cleveland-Oklahoma Office of the Attorney General-Cover Cream

